  U.S. Department of the Interior
  Office of Inspector General




              AUDIT REPORT


  EXCESS FEDERAL PERSONAL PROPERTY
DONATED TO INDIAN TRIBAL ORGANIZATIONS
    BY THE PORTLAND AREA OFFICE,
       BUREAU OF INDIAN AFFAIRS

               REPORT NO. 99-1-187
                   JANUARY 1999
                                                                                    I\‘-IN-BIA-OOI-9S-K


                United States Department of the Interior
                                 OFFICE OF INSPECTOR GENERAL
                                           Washington, D.C. 20240


                                                                            JAN 2     3 19%
Memorandum

To.          ksistant Secretary for Indian Affairs

From         Robert J. Williams &..i_ ! . (‘< I:,-*
             kistant Inspector General for’ Audits

Subject: .4udit Report on Excess Federal Personal Property Donated to lndian Tribal
          Organizations by the Portland Area OffIce, Bureau of Indian Affairs
             (No. 99-I-187)

This report presents the results ofour audit, undertaken at the request ofthe General Services
.\dministration. ofthe acquisition and use ofescess personal property by the Bureau of Indian
.M%rs and Indian tribal organizations. The objective ofthe audit was to determine whether
the Bureau and the tribal ol-sanizations lvere compl>in g ~cith the requirements for the
acquisition. donation, and use of excess personal property on contracts and agreements
awarded under the Indian Self-Determination and Education Assistance .kt

Lt’e reviewed the acquisition, donation, and use of excess personal property by the Bureau’s
Por-tland .4rea Office. including 7 of the Area Oftice‘s 12 agency offices, and 12 tribal
organizations for fiscal LeaI-s 1995. 1996. and 1997. Based on our revien.. we concluded that.
during that period. neither the Bureau offices non- the tribal organizations &lly complied n-ith
Federal regulations in acquiring and using excess personal property associated with contracts
or agreements ai$arded under the .kt. This occurred because the Bureau and the tribal
organizations did not ha1.e the procedures necessaq to ensure that requests for excess
per-sonal propert!’ x\ere adequately supported and that such property ivas properly used and
accounred for .4s a result, u.e identified excess personal property with an original acquisition
cost of S 13.3 million that had been transfer-red by the Bureau to tribal organizations without
adequate documentation.* This amount included properth. l\ith an original acquisition cost
ofS5.4 million that was not used for authorized purposes. U’e also found that tribes were not
certain as to ho\v to dispose of excess personal property and treat any proceeds from such
disposals.


‘The trausfcr orders ~m.ol~ cd c\ccss pcrsoual proput! \\ith an origmal acquisitmi cost ofS IT.3 million. The
dollar an~ounts idcntificd in this report arc based on the Go~wnmcnt~s orlglual xquisitlon cost because \vt‘
could not ldeut$ the \aluc ot” the propert? at the time of tmnsfcr. as Fcdcral agencies arc not required to
maintain data on the dcprcciated \aluc of property or its fair market value. Swerthelcss. because of
depreciation. \ve bcliew that it is reasonable to assu~ne that the \duc ofthc property I\ hen it was transfemd
IO tribal organk~t~ons V;IS less than the amount paid by the Gowrnnmt to originall> xquirc the propsn!.
We made four recommendations to improve the acquisition, use, and disposal of excess
personal property acquired by Indian tribal organizations. Specifically, we recommended
that the Bureau, with tribal participation, develop procedures that adequately document
transfer order requests and that adequately account for persona1 property to ensure that
cognizant Bureau officials approve property transfers only after the requesting tribal
organizations state how the acquisition of the property is appropriate for use under
self-determination contracts or agreements and to clarify the disposal requirements for
donated excess persona1 property.

On August 28, 1998, subsequent to the completion of our fieldwork, the Bureau’s Deputy
Commissioner issued interim guidance pertaining to the acquisition and donation of excess
persona1 property to tribal organizations. In its December 28, 1998, response (Appendix 3)
to the draft report, the Bureau concurred with the report’s recommendations. Based on the
response, we considered all of the recommendations resolved and implemented.

Since the report’s recommendations are considered resolved and implemented, no further
response to this report is required (see Appendix 4).

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of the findings
(Appendix l), actions taken to implement audit recommendations, and identificationofeach
signilicant recommendation on which corrective action has not been taken.

We appreciate the assistance of Bureau and tribal personnel in the conduct of our audit.
                                                 CONTENTS

                                                                                                                 Page

INTRODUCTION             ....................................                                      ...........     1

       BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    ...........    1
       OBJECTIVE AND SCOPE . . . . . . . . . .                                                     ...........    2
       PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . .                              ...........    3

FINDING AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . .                                                   4

       ACQUISITION, USE, AND DISPOSAL OF EXCESS
       PERSONAL PROPERTY . . . . . . . . . . . . . . . . . . . . . .                               ...........    4

APPENDICES         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   ........... 11

       1. CLASSIFICATION OF MONETARY AMOUNTS . . . . . . . . . . . . . . .                                       11
       2. OFFICES VISITED OR CONTACTED . . . . . . . . . . . . . . . . . . . . . . . .                           12
       3. BUREAU OF INDIAN AFFAIRS RESPONSE
           TO DRAFT REPORT . . . . . . . . . . . . . . . . . . . .                                               13
       4. STATUS OF AUDIT REPORT RECOMMENDATIONS . . . . . . . _ . .                                             15
                                       INTRODUCTION

BACKGROUND

The Indian Self-Determination and Education Assistance Act (Public Law 93-638, as
amended) authorized the Secretary of the Interior to enter into self-determination contracts
and agreements with Indian tribes or tribal organizations authorizing them to operate
programs previously administered by the Secretary for the benefit of Indians. The Act aI.so
authorized grant agreements with tribal organizations to strengthen tribal governments, to
improve the ability of tribal organizations to enter into self-determination contract
agreements, and to acquire land relative to the purposes of the grants. Section 1 OS(f) of the
Act authorized the Secretary to acquire excess personal property’ “for donation to an Indian
tribe or tribal organization if the Secretary determines [that] the property is appropriate for
use by the tribe or tribal organization for a purpose for which a self-determination contract
or grant agreement is authorized under the Act.” The donation authority also applies to tribal
organizations that have entered into (1) self-governance agreements with the Secretary, as
specified by Section 406(c) of the Act, and (3) grants for the operation of tribally controlled
schools, in accordance with Section 5209 of the Tribally Controlled Schools Act of 1988
(Public Law 100-297).

To identify and acquire excess personal property under the donation authority, tribal
organizations employ individuals kno\vn as screeners, who must be certified by the Bureau
of Indian Affairs and the General Services Administration. The certification authorizes
screeners to visit Federal facilities and identify excess personal property that could be used
under a self-determination contract or agreement. When suitable property is identified, the
screener reserves the property, pending approval of the transfer by the Bureau. To acquire
the property, a tribal organization completes and submits to the Bureau the form “Transfer
Order, Excess Personal Property” (General Services Administration Standard Form 122).
Lvhich identifies the property to be transferred and includes a description of the prop&y and
the Government’s original acquisition cost. The property transfer order is subsequently
reviewed and approved by a Bureau official, such as an area office property officer or an
agency superintendent. Once the transfer order is approved, the Bureau forwards the order
to the appropriate General Services Administration regional office for final approval by the
Administration’s regional property official. The Administration then notifies the tribal
organization that it can take possession of the property.

Although the Bureau does not take physical possession of the excess personal property of
other Federal agencies, it technically takes title to such property because only the Secretary,
acting through the Bureau, has the legal authority to transfer excess Federal personal
property to tribal organizations for authorized purposes. As specified in the Code of Federal



‘According to the General Services Administration and as used in this report. excess personal property is
defined as personal property under the control of any Federal agency that is no longer needed for the discharge
of the agency’s responslbllltles.

                                                       1
Regulations (25 CFR 900.105), title to the donated property passes to the tribal organization
once the organization takes possession of the property.

OBJECTIVE AND SCOPE

We conducted our audit betlveen January and July 1998 at the request of General Sen.ices
Administration officials, who expressed concerns about the quantity of excess personal
property transferred by the Bureau to Indian tribes and about the use of such property by
Indian tribes. As such, the objective of our audit was to determine whether the Bureau and
lndian tribal organizations were complying with the requirements for the acquisition,
donation, and use of excess Federal personal property on contracts and agreements awarded
under the Indian Self-Determination and Education Assistance Act.

Our audit was limited to the activities of the Bureau’s Portland Area Office, including 7 of
the Area Office’s 12 agency offices, and 12 judgmentally selected tribal organizations visited
or contacted (see Appendix 2). To accomplish our audit objective, \ve interviewed personnel
from the Bureau and tribal offices, the Bureau’s Division of Property Management, and the
General Services Administration. In addition, we re\,ien.ed 405 transfer orders and related
files; property management records; legislation, regulations, and Bureau policy and
procedures memoranda; and other documentation related to acquiring, accounting for, using,
and disposing of excess personal property by tribal organizations during fiscal years 1995,
1996, and 1997.’

The audit was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances, We also reviewed the Department of the Interior’s _kcountability Reports
for fiscal years 1996 and 1997. which included information and assurance statements
required by the Federal Managers’ Financial Integrity Act, and determined that no material
\r.eaknesses were reported that directly related to the objective and scope of our review.

As part of our audit, we reviewed the Bureau’s system of internal controls to the extent
necessary to accomplish our audit objective and found weaknesses in the areas of
(1) approving tribal requests for excess personal property and (2) accounting for transfeerred
excess personal property to ensure that tribal programs requesting excess personal property
received and used the property for authorized purposes. In addition. ne identified the need
for specific guidance on disposal of excess personal property obtained under the SecretaT’s
donation authority and the use of any associated proceeds. These internal control
v,.eaknesses are discussed in the Finding and Recommendations section of this report. The
recommendations, if implemented, should improve the internal controls in these areas.




‘Because the Bureau finalized regulations containing “property donation procedures” In 1996, we limted our
audit effort for fiscal year 1995 to issues pertainins only to the use of donated recess personal propem.

                                                    2
PRIOR AUDIT COVERAGE

During the past 5 years, the General Accounting Office has not issued any reports that
addressed the acquisition ofexcess personal property by Indian tribes. However, in February
1995, the Office of Inspector General issued the report “Acquisition of Surplus Federal
Personal Property by the Sisseton-\Vahpeton Sioux Tribe” (No. 95-I-455). The report stated
that the Tribe acquired more excess Federal personal property than it needed for use on
Tribal self-determination contracts and grants because the Bureau did not monitor the Tribe’s
excess property program or provide adequate control over the acquisition process. As a
result, the Tribe obtained $63.1 million (original acquisition cost) ofexcess personal property
in fiscal years 199 1 through 1993, of which only $3.6 million was accounted for in the Tribal
property inventory. The remaining property was presumably sold by Tribal employees
(screeners) at an estimated price of S 14.9 million, but only $2 million recorded on sales
receipts was deposited into Tribal bank accounts.

The report included two recommendations to the Bureau regarding the development of
procedures to ensure that excess personal property was acquired: accounted for, and used in
accordance with appropriate requirements. In an April 11, 1995, response, the Bureau
concurred with the recommendations and stated that it was revising its Manual “to include
procedures for contracting officers to follow in determining if excess/surplus BIA [Bureau
of Indian Affairs] personal property is required to perfon work within the scope of
contracts, grants, or cooperative agreements.” While the Bureau stated that it would try to
negotiate with tribes to agree to specific standards for. the proper accounting of excess
personal property, the Bureau also stated that “the tribes have been given the right, under the
law, to set their own standards for the proper accounting of donated surplus Federal personal
property.” Based on the Bureau’s concurrence, the recommendations were considered
resolved and implemented. During our current audit, 1l.e noted that the Bureau’s Manual had
not been revised but that the Bureau. in conjunction nith Indian tribes, was preparing Bureau
internal agency procedures which are to include procedures on property donations.




                                              3
                   FINDING AND RECOMhIENDATIONS

ACQUISITION, USE, AND DISPOSAL OF EXCESS PERSONAL
PROPERTY

The Bureau ofIndian Affairs Portland Area Office, the Area Office’s agency offices, and the
tribal organizations reviewed did not fully comply with the requirements for the acquisition,
use, and disposal of excess personal property on contracts or agreements awarded under the
Indian Self-Determination and Education Assistance Act. Specifically, tribal organizations
did not provide sufficient support for property transfer orders; the Area Office and its agency
offices approved inadequately documented transfer orders, including blank transfer order
forms; and the Area Office, its agency offices, and tribal organizations did not ensure that
requested excess personal property was recei\,ed at the reservation and used for authorized
purposes. The Indian Self-Determination and Education Assistance Act (Public Law 93-638,
Section 105(f), as amended) authorizes the Bureau to approve tribal requests to acquire
excess personal property for use related to self-determination contracts or agreements. The
Code of Federal Regulations (25 CFR 900.104) requires the Bureau to approve the tribal
requests provided that the requests state how the property is appropriate for use under
self-determination contracts or agreements. In addition, the Code (41 CFR 101-43.302)
requires that Federal agencies receiving or transferring excess personal property adequately
account for such property. How-ever, the Bureau did not have procedures to ensure that (1)
requests for excess personal property kvere adequately supported by the tribal organization
and sufficiently evaluated by the Bureau and (2) approved property acquisitions w-ere
accounted for and received by the tribal organizations. The tribal organizations reviewed
also did not have adequate procedures to document the need for, verify the receipt of, and
dispose of excess personal property. As a result, excess personal property with an original
acquisition cost of $13.3 million was transferred without proper supporting documentation,
including property Lvith an original acquisition cost of S5.4 million that we believe \\.as not
used for authorized purposes.’

Request for and Approval of Excess Personal Property

The Code of Federal Regulations (25 CFR 900.103. effective August 23, 1996) states that
tribal organizations “shall file a request for specific property with the Secretary, and shall
state how the property is appropriate for use for a purpose for which a self-determination
contract or grant [agreement] is authorized under the Act.” Furthermore, according to the




‘These transfer orders involved excess personal property Gth an origmal acqulsltion cost of $13.3 million.
The dollar amounts identified in this report are based on the Government’s original acquisition cost because
u e could not identify the value of the property at the time of transfer, as Federal agencies are not required to
maintain data on the depreciated value of property or its fair market value. Tevertheless, because of
depreciation. we believe that It is reasonable to assume that the value of the property \vhen it \vas transferred
to tribal organizations \l’as less than the amount paid by the Go\ emment to originally acquire the property.

                                                       4
comments preceding the published regulations,’ the statement ofuse should be “concise” and
“simple” rather than a “detailed submission.” However. of the 405 property transfer orders’
that we reviewed for property with an original acquisition cost of S 13.3 million, we found
that only 12 transfer orders contained sufficient documentation to meet the requirement for
a statement of use but that 147 transfer orders did not identify the self-determination program
for which the property would be used (97 transfer orders cited only “self-governance
compacts” or “self-determination contracts” with multiple programs, 42 transfer orders cited
only public law references, and 8 transfer orders had no justification or program cited) and
that 246 transfer orders cited a specific self-determination program by name or contract
number but did not contain information such as why the property was needed. Overall,
97 percent of the transfer orders did not state how the property would be appropriate for use
for self-determination contracts or agreements.

Because the tribal organizations did not submit adequate documentation showing how they
would use the requested property, cognizant Bureau approving officials did not have
sufficient information upon which to base their decisions to approve a transfer order, nor did
the officials request additional information. For example, we found that the approving
official at the Colville Agency signed or preapproved blank transfer order forms to “expedite
the process.” During our review of the Colville Tribes’ files, we found five such original
preapproved forms. As such, these forms could have been used by the screener to obtain an
unlimited quantity of excess personal property items without any further review by the
Bureau or the Colville Confederated Tribes.

At the tribal level, we found that the tribal organizations revielved did not have adequate
procedures to establish and document their need for excess personal property for use in their
authorized programs. For example, employees at the Nez Perce and Coeur d’Alene Tribes
stated that they communicated their property needs informally to the cognizant tribal
screener without any documentation of their property needs. We found that the Nisqually,
Col\ille. Shoalwater Bay, Quinault, and Yakama Tribes sometimes used “wish lists” to
document their programs’ needs for property. However, the lists did not consistently identify
the contract or agreement under which the property was needed. nor did the lists identify
n.hat the property would be used for. We also found that the transfer orders at only three of
the tribes reviewed (Nez Perce, Coeur d’Alene, and Shoshone-Bannock) were approved by
cognizant tribal officials who would have knowledge of equipment needs. Without such
information on the transfer orders or as supplements to the orders, Bureau approving officials
were not given written assurance that the transfer orders were authorized by cognizant tribal
officials.




‘From the summary of comments preceding the published regulations. Source: “Federal Register,” June 24,
1996 (Volume 61, Number 122, page 22491).

‘The transfer orders were from those provided by the General Senices Administration’s Regional Inspector
General for Investigations.

                                                   5
Use of, Accounting for, and Disposal of Excess Personal Property

The Code of Federal Regulations (41 CFR 101-43.302) requires that Federal agencies
receiving or transferring excess personal property establish controls over the processing of
transfer orders. However, we found that none of the five Bureau offices visited adequately
accounted for the excess personal property. Specifically, although two agency offices
maintained records to track what transfer orders were processed, none of the offices verified
that the tribal program requesting the excess personal property received the items. We also
found that tribes used excess personal property for purposes other than supporting programs
under self-determination contracts and were uncertain as to the procedure for disposing of
the property.

         Use of Excess Personal Property. Because the Bureau offices reviewed did not
properly approve transfer orders or adequately account for excess personal property
transferred to the tribal organizations reviewed, there was a lack of assurance that transferred
property was used for purposes appropriate to specific self-determination contracts or
agreements. We found that eight tribal organizations obtained excess Federal property with
an original acquisition cost of about $5.4 million for non-self-determination activities.‘j
Specifically, five tribes obtained property for use on noncontract or grant programs; six tribes
obtained property for the purposes of sale, trade-in, or lease; and six tribes obtained property
for distribution to tribal members.’ For example:

        - At the Yakama Nation, three non-Bureau programs receiving excess personal
property were the Yakama Forest Products Enterprise, a program on aging funded by the
State of Washington, and a Headstart program funded by the Department of Health and
Human Services. These programs were not contracted with the Bureau and therefore lvere
not eligible to receive excess personal property under the Code (25 CFR 900.104). In
addition, tribal members received furniture and household items donated from excess Federal
property. While we were able to identify the property distributed to these programs and to
tribal members based on records maintained by the screener, we were unable to identify the
property to specific transfer orders. The screener told us that he used different contract
numbers when screening furniture, including the Nation’s enrollment contract with the
Bureau. Based on our review of the work to be performed under the self-determination
enrollment contract, we found no reference in the contract to support that excess furniture
should be provided to other programs or tribal members, and based on our review of tribal
records, we found that the enrollment program office did not receive any excess property.



“We did not identify any transferred excess property used for unauthorized purposes at the Nez Perce, Coeur
d’Alene, Spokane, or Sahsh and Kootenai Tribes.

‘The Yakama. Kootenai, Colville, Shoalwater Bay, and Shoshone-Bannock Trrbes obtained $4,403,8’2 of
excess property for use on unauthorized programs. The Yakama, Colville, Shoalwater Bay, Quinault,
Shoshone-Bannock, and Jamestown S’Klallam Tribes obtained $736,981 of property for the purposes of sale,
trade-m, or lease. The Yakama, Kootenai, Colville, Nisqually, Quinault, and Shoalwater Bay Tribes obtamed
S234.781 of property for distribution to tribal members.

                                                     6
Therefore, we concluded that furniture and household items totaling about $235,000 screened
under the enrollment contract were not used for contract purposes.

         - At the Colville Confederated Tribes, donated excess personal property was
routinely distributed to unauthorized programs and tribal enterprises, including the Colville
Tribal Services Corporation, the Colviile Tribal Enterprises Corporation, the Roosevelt
Recreational Enterprise, the Tribes Gaming Commission, a Headstart program funded by the
Department of Health and Human Services, and a program on aging funded by the State of
Washington. While we were able to identify many of the property distributions to these
programs based on records maintained by the Tribes’ screener, we were not able to identify
all of the property items to specific transfer orders because the transfer orders referred only
to a public law citation, with no further details on how the property would be used.
However, we identified property that had an original acquisition cost of $455,000 which was
obtained for Tribal enterprises. This property included titanium, which the Tribe sold, and
a pickup truck assigned to the construction enterprise, which Tribal officials said was in
Arizona on a construction project.

         - The Shoshone-Bar-mock Tribes screened and obtained 61 revolvers (original
acquisition cost of $24,400) to use as trade for new shotguns, ammunition, and other law
enforcement equipment. The revolvers were transferred via a transfer order approved by the
Bureau but not by the General Services Administration. The Tribes’ Police Chieftold us that
trades were completed in which he received 10 new shotguns in exchange for 13 revolvers
and that 8 or 9 additional revolvers were traded for 9,000 rounds of ammunition. The Police
Chief was planning to trade additional revolvers for bulletproof vests. The remaining
revolvers had not been traded or issued to officers. A General Services Administration
official told us that these revolvers should not have been transferred to the Tribes because
of the Administration’s written policy that excess weapons should be used only by other
Federal agencies.

        - The Shoalwater Bay Tribe obtained excess personal property that was used in trade
with third-party firms. The Tribe used third-party firms to transport, repair, and/or store
excess personal property, but Tribal officials stated that funds were not available to pay for
these services. As a result, trades often occurred in which title to the excess personal
property was transferred to the third-party firms in exchange for their services. Similarly,
the Tribe traded excess personal property for equipment and other services to benefit a Tribal
enterprise. We identified 14 trades for which the Tribe received about $55,000 worth of
equipment and services.

         - The Jamestown S’Klallam Tribe obtained an excess barge crane (original
acquisition cost of $708,845) in 1996. The transfer order stated that the barge crane “will
be utilized in the performance of a PL [Public Law] 93-638 Contract Grant.” In 1997, the
General Services Administration found that the Tribe did not take possession of the barge
crane. Instead, a barge and tug company delivered it directly from the Federal Government
to a private company that had a lease-purchase arrangement with the Tribe. The financial
terms of the agreement were for the company to pay the Tribe $73,500 over 5 years, with an
option to purchase the barge crane for $262,500 after the fifth year.

        - An official of the Kootenai Tribe of Idaho told us that the Tribal screener placed
clothing obtained through the excess property program in the Tribes’ recreation room and
that Tribal members were allowed to take possession of the property on a first-come, first-
served basis without signing for the clothing. Therefore, the distributions were not related
to authorized self-determination programs.

Based on our review, we believe that guidance needs to be issued which specifies the length
of time excess Federal property must be used for purposes relating to self-determination
contracts or agreements.

        Accounting for Excess Personal Property. Of the Bureau offices visited, only the
Northern Idaho and the Spokane Agencies maintained adequate records of the transfer order
forms processed by the respective agency. At the Yakama Agency, which did not maintain
any documentation, Agency officials stated that they relied on the records kept by the
Yakama Nation. At the other offices visited, the documentation that did exist was
disorganized and incomplete. As such, we could not determine from Bureau or tribal files
whether property that was approved for transfer was picked up by authorized tribal
representatives and received by the tribe. Although the Bureau is not required to record this
property in its property management system, the Bureau, in effect, takes title to this excess
personal property, since only the Secretary is authorized to transfer title to the property to
tribal organizations. As such, we believe that the Bureau should maintain a record of
sufficiently documented transfer orders and receipt documentation, which would assist
Bureau officials in safeguarding the integrity of the program.

We also found that none of the Bureau offices or tribal organizations visited had written
procedures to verify that the tribal program which requested excess personal property had
received the property. However, we believe that these procedures would help protect the
program from fraud and abuse which could result from the insufficient separation of duties
and oversight at the tribal level. Specifically, the tribal screener is usually involved with all
facets of the acquisition of excess Federal property, from screening property and preparing
transfer orders to picking up the property, with little or no oversight from tribal officials.
However, we believe that the Bureau, working with tribal organizations, should establish
procedures to ensure that the tribal programs which request excess property receive the
items. These procedures could include a receipt document (for example, the transfer order
itself) signed by tribal officials other than the screener.

         Disposal of Excess Personal Property. The Code of Federal Regulations (25 CFR
900.5 1) states that tribal property management systems should contain requirements for the
use, care, maintenance, and disposition of property in which the property is vested to the
tribal organization or the Federal Government. As title to excess Federal property is vested
to tribal organizations, excess property no longer needed for the contract should be disposed
of in accordance with the tribal property management requirements. However, we found that

                                                8
a considerable amount of confusion existed among the tribes regarding how long excess
property should be held before it could be disposed of and how proceeds resulting from the
disposal of the property would be treated. For example:

        - A Yakama Tribal Council member who had significant experience in purchasing
and managing property told us that the Bureau’s standard for retaining excess property items
was a minimum of 1 year, after which the Tribe could dispose of the items in accordance
with Tribal procedures. At the Quinault Indian Nation, officials referred to holding periods
of from 12 to 18 months. Personnel from other tribes told us that they follow a l-year
holding period, but we were unable to find written guidance regarding the time to hold
property at any of the Bureau or tribal locations visited.

         - Six of the tribes reviewed disposed of donated excess Federal property through
sales, auctions, trade-ins, or barters. For example, in May 1997, the Yakama Nation
conducted a sale of both tribal and excess property. The donated excess property consisted
of 11 vehicles which were apparently used by self-determination programs, but a Nation
board of survey concluded that the property was no longer needed for these programs. As
such, the Nation generated revenues of $3,132 from the sale of excess personal property,
which was deposited into the Nation’s general fund. Nation employees told us that they did
not consult with the Bureau’s Portland Area Office prior to holding the sale but that verbal
approval was given by the Bureau’s Yakama Agency. At the Colville Confederated Tribes,
the titanium sheets acquired as excess property were sold for $17,328 to a non-Tribal party,
and the proceeds were credited to the Colville Tribal Services Corporation. We were unable
to determine in either instance whether the proceeds benefited self-determination programs.

         - Other tribes were hesitant to hold sales or otherwise dispose of property that was
no longer needed or functional. At the Nisqually Tribe, several large equipment items were
cannibalized, with the remaining components stored outdoors, which resulted in
deterioration, creating an unsightly and potentially hazardous condition. Tribal officials told
us that they wanted to dispose of these items but that they did not know what regulations
would govern such a sale, At the Quinault Indian Nation, property that was no longer needed
was stored near the Tribal Police Station, and a Nation official said that he was interested in
having a sale but did not know the procedures for obtaining clearance to dispose of excess
personal property.

Based on our review, we believe that the Bureau and the Indian tribes should work jointly
to develop criteria and procedures which address sales, trade-ins, and other methods of
disposing of excess personal property. The criteria and procedures should include the
minimum amount of time the tribal organization needs to use the property before it can
dispose of an item and guidance on how to handle disposals.




                                               9
Recommendations

We recommend that the Assistant Secretary for Indian Affairs direct appropriate Bureau
officials, in coordination with tribal representatives, to:

        1. Ensure that documentation is included with tribal requests for donated excess Federal
property and that it states how the property is appropriate for a specific contract or agreement
awarded under the Indian Self-Determination and Education Assistance Act.

       2. Approve requests for excess property only when such requests are adequately
supported and approved by cognizant tribal officials.

        3. Develop procedures which specify the length of time excess personal property must
be used on a self-determination contract or agreement and ensure that cognizant Bureau
personnel maintain adequate documentation ofthe approved transfer orders and the subsequent
receipt of the property by Indian tribal organizations. At a minimum, the documentation should
include the transfer order forms approved by the Bureau and the General Services
Administration and the corresponding receipt documents signed by tribal personnel.

        4. Clarify to tribal organizations that excess personal property donated by the Bureau
of Indian Affairs should be disposed of in accordance with the organization’s property
management system, as for any other property the organization owns, and that approval for
disposal is not required from the Bureau.

Bureau of Indian Affairs Response and Office of Inspector General Reply

In the December 28, 1998, response (Appendix 3) to the draft report, the Bureau of Indian
Affairs concurred with Recommendations 1, 2, 3, and 4. Based on the response, we consider
all of the recommendations resolved and implemented (see Appendix 4).

Additional Comments on Audit Report

In its response, the Bureau provided additional comments on Appendix 1, “Classification of
Monetary Amounts,” of the draft report as follows:

         Any savings resulting !i-om the Bureau’s implementation of the
         recommendations would be realized by the Federal Government as a whole
         and not the Bureau of Indian Affairs. Since the purpose of the program is to
         minimize the expenditure of Bureau funds for the purchase of equipment, the
         only funds the Bureau can put to better use are the funds spent on processing
         requests for property that is not used for authorized purposes. Such amount
         does not approach $5.4 million. Therefore, we ask that the report be revised
         to state that the monetary impact of the finding is to the Federal Government
         and not the Bureau.

We have revised Appendix 1 to reflect the Bureau’s comments.
                                                                                                 APPENDIX 1


                 CLASSIFICATION OF MONETARY AMOUNTS


                                                                                          Funds To Be Put
                         Finding Area                                                      To Better Use

Acquisition and Use of Excess Personal Property                                             $5.4 million’




*This amount represents the Government’s original acquisition cost of excess personal property donated to
eight tribal organizations that was not used for activities related to self-determination contracts or agreements.
Because of depreciation, we believe that it is reasonable to assume that the value of this property when it was
transferred was less than the amount paid by the Government to originally acquire the property. Any savings
resulting from the Bureau’s implementation of the recommendations would be realized by the Federal
Government and not the Bureau of Indian Affairs.


                                                       11
                                                          APPENDIX 2


                    OFFICES VISITED OR CONTACTED


                   OFFICE                            LOCATION

Bureau of Indian Affairs

   Portland Area Office                         Portland, Oregon
   Y akama Agency                               Toppenish, Washington
   Northern Idaho Agency                        Lapwai, Idaho
   Spokane Agency                               Wellpinit, Washington
   Colville Agency                              Nespelem, Washington
   Flathead Agency*                             Pablo, Montana
   Fort Hall Agency*                            Fort Hall, Idaho
   Siletz Agency’                               Siletz, Oregon

Tribal Organizations

    Yakama Indian Nation                        Toppenish, Washington
    Nez Perce Tribe                             Lapwai, Idaho
    Kootenai Tribe of Idaho                     Banners Ferry, Idaho
    Coeur d’Alene Tribe                         Plummer, Idaho
    Spokane Tribe                               Wellpinit, Washington
    Colville Confederated Tribes                Nespelem, Washington
    Nisqually Tribe                             Olympia, Washington
    Quinault Indian Nation                      Taholah, Washington
    Shoalwater Bay Tribe                        Tokeland, Washington
    Confederated Salish and Kootenai Tribes*    Pablo, Montana
    Shoshone-Bannock Tribes*                    Fort Hall, Idaho
    Jamestown S’Klallam Tribe                   Sequim, Washington




*Contacted only.

                                           12
                                                                                     APPENDIX 3
                                                                                      Page 1 of 2
                  United States Department of the Interior
                                   OFFICE OF THE SECRETARY
                                    WASHINGTON, DC. 20240
                                        DEC 2 8 19%


Memorandum

To:       Assistant Inspector General for Audits

From:     Assistant Secretary - Indian A

Subject: Draft Audit Report on Excess                                 ed to Indian Tribal
         Organizations by the Portland Area Office, Bureau of Indian Affairs (Assignment No.
         W-I%BIA-001-98-R)

The draft audit report concluded that the Bureau offices within the Portland Area and the tribal
organizations reviewed did not lily comply with the requirements for the acquisition, use, and
disposal of excess personal property acquired in support of contracts or agreements awarded under
the Indian Self-Determination and Education Assistance Act. Specifically, tribal organizations did
not provide sufficient support for property transfer orders; the Bureau offices approved inadequately
documented transfer orders or simply provided tribes with signed blank transfer order forms; and
that there was no assurance that the excess property was received at the reservation and used for
authorized purposes.

The Bureau of Indian Affairs generally agrees with the findings contained in the audit report and
appreciates the changes made to the report as a result of the exit conference. In addition to our
responses to the recommendations, we offer the following comments on the contents of the report
and ask that the comments be considered when you prepare the final audit report.

Classification of Monetary Amounts

Any savings resulting from the Bureau’s implementation of the recommendations would be realized
by the Federal Government as a whole and not the Bureau of Indian Affairs, Since the purpose of
the program is to minimize the expenditure of Bureau funds for the purchase of equipment, the only
funds the Bureau can put to better use are the funds spent on processing requests for property that
is not used for authorized purposes. Such amount does not approach $5.4 million. Therefore, we ask
that the report be revised to state that the monetary impact of the finding is to the Federal
Government and not the Bureau.




                                                 13
                                                                                        APPENDLX 3
                                                                                         Page 2 of 2
Recommendations

We [The Office of Inspector General] recommend that the Assistant Secretary for Indian Affairs
direct appropriate Bureau officials, in coordination with tribal representatives, to:

        1. Ensure that documentation is included with tribal requests for donated excess Federal
property and that it states how the property is appropriate for a specific contract or agreement
awarded under the Indian Self-Determination and Education Assistance Act.

       2. Approve requests for excess property only when such requests are adequately supported
and approved by cognizant tribal oficials.

        3. Develop procedures which specijr the length of time excess personal property must be
used on a self-determination contract or agreement and ensure that cognizant Bureau personnel
majntain adequate documentation of the approved transfer orders and the subsequent receipt of the
property by Indian tribal organizations. At a minimum, the documentation should include the
transfer order forms approved by the Bureau and the General Services Administration and the
corresponding receipt documents signed by tribal personnel.

Bureau Response. The Bureau concurs. Interim administrative guidance on the acquisition and
donation of excess personal property to Indian tribes and tribal organizations was issued in August
I 998. These new procedures should significantly improve the overall process, especially as it relates
to documenting the need for the prop:rJ.for~use on self-determination contracts or grants. As
discussed at the exit conference, the Bureau will revise Exhibit 3, Statement of Use of Excess
Personal Property, to include the signature of the tribal requesting official.

The Bureau has no basis for specifying the length of time excess personal property must be used on
a self-determination contract or grant. Nevertheless, we believe that by strengthening the procedures
for the acquisition of the property, we can better ensure that the property will be used for the
intended contract purposes.

The Bureau considers these recommendations resolved and implemented.

        4. Clarify to tribal organizations that excess personal property donated by the Bureau of
Indian Affairs should be disposed of in accordance with the organization’s property management
system, like any other property which the organization owns, and that approval .for disposal is not
required from the Bureau.

Bureau Response. The Bureau concurs. The interim procedures clearly state that the Bureau has no
authority or role in disposing of excess property of other Federal agencies acquired by an Indian tribe
or tribal organization. The property should be disposed of in accordance with the Indian tribe’s
internal procedures. The Bureau considers this recommendation resolved and implemented.




                                                   14
                                                                APPENDIX 4


        STATUS OF AUDIT REPORT RECOMMENDATIONS


    Finding/
Recommendation
   Reference           Status                 Action Required

  1,2,3, and 4   Implemented.   No fkther action is required.




                                15
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                      www.oig.doi.gov



                      Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Offke of Inspector General                              Telephone HOTLINE
1849 C Street, N-W.                                     l-800-424-508 1 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U.S. Department of the Interior                         (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                       (67 1) 647-6060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning , Gua.m 969 11
Toll Free Numbers:
 l-800-424-5081          ::
 TDD l-800-354-0996
                         i
FTVCommercial Numbers:
 (202) 208-5300
 TDD (202) 208-2420      E*



    C Street, N.W.
    Stop 5341
   hineton. D.C. 20240
